OIG Investigative Reports, St Louis, MO December 16, 2010 - Hazelwood Woman Indicted on Federal Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT OF MISSOURI
RICHARD G. CALLAHAN
United States Attorney
NEWS RELEASE
For further information call (314) 539-2200
December 16, 2010
For Immediate Release
Hazelwood Woman Indicted on Federal Charges
St. Louis, MO: The United States Attorney's Office announced today that LEONETTA LANE of Hazelwood was indicted for defrauding three separate government programs over the past several years.
The indictment alleges that Lane was employed for a private tax service from 2003 to 2009 and then with the Internal Revenue Service from 2009 to 2010.  During this time, Lane was representing to the Department of Education, the Social Security Administration and the Department of Agriculture that she was totally disabled and unable to work.  Lane also allegedly mislead her health care provider about her ability to work.
In reliance on Lane's false statements about her disability, the Department of Education forgave more than $75,000 in student loans, and the Social Security Administration and Department of Agriculture paid out tens of thousands of dollars more in benefits to Lane.
Lane was indicted by a federal grand jury on one felony count of filing a false statement relating to her student loans, a second false statement count relating to her Social Security benefits and a count for illegally receiving benefits from the Department of Agriculture..
If convicted, counts related to false statements to the Department of Education (Count I) and Social Security (Count II) are punishable by up to 10 years or $250,000 fine. Counts related to unlawful receipt of benefits (Count III) is punishable by up to 5 years or a $10,000 fine.
The case was investigated by agents with Departments of Education, Treasury and Agriculture and the Social Security Administration.  Tom Albus is handling the case for the United States Attorney's Office.
As is always the case, charges set forth in an indictment are merely accusations and do not constitute proof of guilt.  Every defendant is presumed to be innocent unless and until proven guilty.
Top
Printable view
Last Modified: 12/30/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov